                                                       NATIONAL SCIENCE FOUNDATION 

                                                        OFFICE OF INSPECTOR GENERAL 

                                                          OFFICE OF INVESTIGATIONS 


                                               CLOSEOUT MEMORANDUM

 Case Number: AI0070056                                                                      Page 1 ofl



                 We assessed an allegation of a small amount of plagiarism in a recent NSF proposal 1• The
         copied text including paraphrasing and was interspersed with additional statements. An
         appropriate reference was present but no quotation marks were used to distinguish the text. The
         Subject's response minimized the consequence of the copying by stating that it was just
         background material or just boilerplate material, and by stating that he included references to the
         author for much of the material. The Subject also pledged more careful citation practices in the
         future.

         Because of the limited amount of copied text, we closed this matter and sent a Questionable
         Research Practice letter to the subject which emphasized that the "background material"
         rationalization asserted by the Subject was not an acceptable practice by NSF standards.

                   Accordingly, this case is closed.




                                                                                                     This
         proposal was declined for funding.




NSF OIG Form 2 (11/02)
